Report No. D-2009-103                September 18, 2009




      The U.S. Army Corps of Engineers Ice and Water
          Response to the 2008 Hurricane Season
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.DODig.mil/audit/reports or contact the Secondary
Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
ACI                           Advance Contracting Initiative
FEMA                          Federal Emergency Management Agency
GPS                           Global Positioning System
IAP                           International American Products
IG                            Inspector General
NLSA                          National Logistics Staging Area
POD                           Points of Distribution
QA                            Quality Assurance
USACE                         U.S. Army Corps of Engineers
                                  INSPECTOR GENERAL
                                  DEPARTMENT OF DEFENSE
                                    400 ARMY NAVY DRIVE
                               ARLINGTON, VIRGINIA 22202-4704




                                                                       September 18, 2009

MEMORANDUM FOR COMMANDER AND CHIEF OF ENGINEERS, U.S. ARMY
                 CORPS OF ENGINEERS
              AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: The U.S. Army Corps of Engineers Ice and Water Response to the 2008
         Hurricane Season (Report No. D-2009-103)


We are providing this report for your information and use. We performed the audit based
on the commitment of the President's Council on Integrity and Efficiency (now known as
the Council of Inspectors General on Integrity and Efficiency) to take a proactive
approach in reviewing disaster relief efforts. We considered comments from the U.S.
Atmy Corps of Engineers on a draft of this report when preparing the final report.

USACE comments confotmed to the requirements of DOD Directive 7650.3; therefore,
additional comments are not required.

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604-9201 (DSN 664-9201).




                                             Richard B. Jolliffe
                                             Assistant Inspector General
                                             Acquisition and Contract Management
Report No. D-2009-103 (Project No. D2009-D000CG-0027.001)                   September 18, 2009

               Results in Brief: The U.S. Army Corps of
               Engineers Ice and Water Response to the
               2008 Hurricane Season
                                                        23 of 66 invoices we reviewed for a net amount
What We Did                                             of $53,117.54 in overbillings. USACE overpaid
We reviewed the U.S. Army Corps of                      $44,148.80 on 18 of the invoices and could
Engineers’ (USACE) response to the                      overpay an additional $8,968.74 if they pay the
2008 hurricane season. Specifically, we                 remaining 5 invoices.
reviewed the award and administration of
contracts for ice and water distribution during         What We Recommend
the disaster relief efforts. We also reviewed the       USACE should modify future and consider
amount USACE paid for standby time for the              modifying current ice contracts to pay a
ice contract during the 2008 hurricane season.          maximum of 10 hours per calendar day for
                                                        standby time; verify the accuracy of IAP-
What We Found                                           supplied spreadsheets and recoup the
USACE internal controls over contract                   overpayments made to IAP for standby time;
administration were ineffective. USACE                  perform a 100-percent review of invoices for the
officials have made improvements to the ice and         2008 hurricane season as well as standby time
water missions since Hurricane Katrina.                 invoices billed after March 20, 2009, or request
However, for the 2008 hurricane season, we              the Defense Contract Audit Agency to perform
identified areas of the missions that can be            the review; modify future and consider
improved. The issues we identified occurred             modifying current ice and water contracts to
because USACE Charleston District:                      include a requirement for the contractor to mark
                                                        trucks by what they are transporting; include a
                                                        contract requirement for each truck to have an
   paid International American Products (IAP),
                                                        electronic tracking system to be scanned at each
    Worldwide Services for standby time on the
                                                        destination; and improve contract administration
    ice contract based on a 24-hour clock
                                                        and quality assurance procedures.
    instead of a 10-hour clock and would have
    avoided costs of about $4.4 million by
    paying for standby time on a 10-hour clock          Management Comments and
    and                                                 Our Response
   did not verify the accuracy of IAP                  USACE agreed or partially agreed with nine
    spreadsheets used to calculate standby time         recommendations. USACE disagreed that using
    and, as a result, overpaid IAP $44,148.80           only geospatial data would provide accurate
    and could overpay an additional $8,968.74 if        mileage amounts. USACE provided an
    they pay the remaining invoices.                    alternative, which we accept as long as USACE
                                                        ensures that it is not paying for excess ground
As a result, we identified about $4.4 million in        mileage. The responses meet the intent of the
funds USACE Charleston District could have              recommendations. No additional comments are
put to better use by not paying the contractor on       required.
a 24-hour clock. IAP mischarged USACE on




                                                    i
Report No. D-2009-103 (Project No. D2009-D000CG-0027.001)              September 18, 2009

Recommendations Table

Management                   Recommendations                No Additional Comments
                             Requiring Comment              Required
Commander, U.S. Army                                        1, 2, 3, 4, 5, 6, 7, 8, 9, and 10.
Corps of Engineers




                                          ii
Table of Contents

Introduction                                                    1

      Objectives                                                1
      Background                                                1
      Review of Internal Controls                               4

Finding. U.S. Army Corps of Engineers Ice and Water Missions    5

      Recommendations, Management Comments, and Our Response   17

Appendices

      A. Scope and Methodology                                 21
      B. Prior Coverage                                        23

U.S. Army Corps of Engineers Comments                          27
Introduction
Objectives
We reviewed the U.S. Army Corps of Engineers’ (USACE) response to the
2008 hurricane season. Our review was divided into two subprojects. Specifically, we
reviewed the award and administration of contracts for ice and water distribution during
the disaster relief efforts. See Appendix A for a discussion of the scope and methodology
and Appendix B for prior coverage related to the objective.

Background
The audit is based on the commitment of the President’s Council on Integrity and
Efficiency (now known as the Council of Inspectors General on Integrity and Efficiency)
to take a proactive approach in reviewing disaster relief efforts. In addition, the DOD
Office of Inspector General (IG) reviewed the award and administration of contracts for
temporary roofing and temporary power for the 2008 hurricane season. We will issue a
separate report for Project No. D2009-D000CG-0027.000 to address the temporary
roofing and temporary power contracts.

Emergency Guidance
The “Robert T. Stafford Disaster Relief and Emergency Assistance Act” and the National
Response Framework provide guidance for Government officials to use during
emergency situations. The “Robert T. Stafford Disaster Relief and Emergency
Assistance Act” authorizes Federal agencies by the direction of the President, to provide
financial and other forms of assistance to support response, recovery, and mitigation
efforts following declared disasters. The National Response Framework is used to
respond to Presidential declarations and provides structure for effective and efficient
incident management among the Federal, State, and local emergency management
agencies after a disaster. The National Response Framework authorized the Federal
Emergency Management Agency (FEMA), part of the Department of Homeland Security,
to issue mission assignments.

The National Response Framework is a guide on how the Nation conducts all-hazards
responses. It is built on scalable, flexible, and adaptable coordinating structures to align
key roles and responsibilities across the Nation, linking all levels of Government,
nongovernmental organizations, and the private sector. It is intended to capture specific
authorities and best practices for managing incidents that range from serious but local to
large-scale terrorist attacks or catastrophic natural disasters.

Advance Contracting Initiative Contracts
To execute a quick response to emergencies and disasters, USACE developed and
implemented Advance Contracting Initiative (ACI) contracts to use for disaster relief.




                                              1
ACI requirements contracts are awarded before disasters occur. ACI provides for
advertising and awarding contracts in advance of disaster and emergency responses for
certain missions.

These contracts provide USACE contracting personnel the ability to place delivery orders
after a disaster at the prenegotiated rate for supplies and services. Agencies use
requirements contracts as a method to fill actual needs by placing delivery orders against
the contracts. USACE had ACI contracts in place for the 2008 hurricane season for ice,
water, debris, temporary power, and temporary roofing. USACE Charleston District was
responsible for the ice contract, and USACE New England District was responsible for
the water contract.

ACI Ice Contract
USACE Charleston contracting office awarded ACI contract W912HN-07-D-0007 to
International American Products (IAP), Worldwide Services on December 22, 2006, for a
not to exceed amount of $350 million over the life of the contract. The contract has a
1 year base period ending December 31, 2007, and 2 option years that end
December 31, 2009. The purpose of the contract is to provide packaged ice and
necessary supporting items and services, to include:

       refrigerated storage units;
       transportation, loading, and unloading of shipments;
       drayage;
       operation and maintenance of refrigerated storage units;
       participation in partnering activities; and
       strategic planning services in the Continental United States, Puerto Rico, U.S.
        Virgin Islands, Alaska, Hawaii, Guam, Northern Mariana Islands, American
        Samoa, Federal States of Micronesia, and Republic of the Marshall Islands.

The contract states that the contractor must have a global positioning system (GPS)
installed or similar tracking abilities for all shipments.

USACE Charleston contracting office advertised the solicitation as unrestricted and
received three responses. The Source Selection Evaluation Board evaluated the three
responses and determined that IAP was the best overall proposal and most beneficial to
the Government.

ACI Water Contract
USACE New England District awarded ACI contract W912WJ-08-D-0001 to IAP on
April 4, 2008, without a not-to-exceed amount. The contract has a 1 year base period
ending March 31, 2009, and 4 option years that end March 31, 2013. The purpose of the
contract is to provide bottled water including:

       vendor-managed storage;
       transportation, loading, and unloading;
       drayage;


                                             2
       additional ground mileage; and
       dry storage trailers in the Continental United States, Puerto Rico, U.S. Virgin
        Islands, Alaska, Hawaii, Guam, Northern Mariana Islands, American Samoa,
        Federal States of Micronesia, and Republic of the Marshall Islands.

The contract states that the contractor must have a GPS installed or similar tracking
abilities for all shipments.

USACE New England District advertised the solicitation as unrestricted and received
six responses. USACE New England District did not consider one response because it
was received after the deadline and two responses because they did not meet the technical
requirements of the request for proposals. The Source Selection Evaluation Board
evaluated the three remaining responses and determined that IAP was the best overall
proposal and the most beneficial to the Government.

Ice and Water Distribution Process
Once a major disaster strikes, State and local authorities join together to provide
emergency requirements for the public. In instances where State and local agencies are
not capable of meeting all emergency requirements, the Federal Government coordinates
and organizes to support State and local emergency response efforts. Along with FEMA,
USACE is the primary agency responsible for planning, preparedness, and response as
required by Emergency Support Function #3, “Public Works and Engineering.” USACE
also provides emergency supplies and services for humanitarian support including bottled
water and ice, and helps FEMA account for ready-to-eat meals based on mission
assignments from FEMA.

National Logistics Staging Area
The National Logistics Staging Area (NLSA) provides a location where bulk resources of
ready-to-eat meals, bottled water, bagged ice, tarps, and other expendable supplies from
Federal, State, or other resources can be received. While at the NLSA, emergency
supplies are accounted for and prepared for distribution. The NLSA team coordinates
transportation to designated county points of distribution (PODs) at the direction of the
State. The NLSA also provides driver and staff supporting services.

Points of Distribution
PODs are centralized locations where the public picks up life-sustaining commodities
following a disaster or emergency. Commodities provided can include ready-to-eat
meals, bottled water, and limited amounts of ice, and tarps. The Local Emergency
Management Agency is the primary authority for the activation, operation, and
demobilization of the PODs. PODs must be able to accommodate vehicle traffic (drive-
thru), pedestrian traffic (walk-thru), and mass transit traffic (bus or rail). Each person or
vehicle receives a set amount of supplies. The recommended amount for each person or
vehicle to receive is enough supplies for a household of three. Each car is provided two
or three bags of ice, one case of bottled water, and six ready-to-eat meals. One truck load
of ice serves 5,000 people. One truck load of water serves 5,000 people. One truck load
of ready-to-eat meals serves 10,000 people.


                                              3
2008 Hurricane Season
During the 2008 hurricane season, three storms; Gustav, Hannah, and Ike; struck the
United States and required USACE water and ice disaster relief assistance. USACE
Charleston District officials ordered ice for just Hurricanes Gustav and Ike. USACE
New England District officials ordered bottled water for recovery efforts for all three
storms.

Hurricane Gustav
Hurricane Gustav made landfall in Louisiana in September 2008 as a Category 2
hurricane, causing significant wind, storm surge, and flooding damage in Louisiana,
Texas, Oklahoma, and Arkansas. Cost estimates of damage for Hurricane Gustav in the
United States total at least $4.3 billion.

Hurricane Hannah
Hurricane Hannah made landfall on the border of the Carolinas in September 2008,
before moving up the Eastern Seaboard and making a second landfall over Long Island.
Hurricane Hannah was the fourth hurricane of the 2008 season. Cost estimates of
damages for Hurricane Hannah in the United States total at least $100 million.

Hurricane Ike
According to FEMA, Hurricane Ike was the third most destructive hurricane to ever make
landfall in the United States. Hurricane Ike made landfall in Texas in September 2008.
As a Category 2 hurricane, Hurricane Ike caused considerable storm surge in coastal
Texas and significant wind and flooding damage in Texas, Louisiana, Michigan,
Tennessee, Illinois, Indiana, Kentucky, Missouri, Ohio, and Pennsylvania. Cost
estimates of damage for Hurricane Ike total at least $30 billion.

Review of Internal Controls
DOD Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures,”
January 4, 2006, requires DOD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. USACE internal controls over
contract administration were ineffective as they applied to the audit objectives because
USACE officials did not adequately perform Government oversight of the contract.
Implementing Recommendations 2, 3, 4, 6, and 10 will correct these internal control
weaknesses. We will provide a copy of the final report to senior USACE officials
responsible for internal controls.




                                             4
Finding. U.S. Army Corps of Engineers Ice
and Water Missions
USACE officials have made numerous improvements to the ice and water missions since
Hurricane Katrina. However, for the 2008 hurricane season, we identified areas of each
mission that can be improved. USACE should improve the terms and conditions of
future ice and water ACI contracts, and the contract administration and quality assurance
(QA) procedures for the ice and water missions. The issues we identified occurred
because USACE:
        Charleston District paid the ice contractor for standby time 1 based on a 24-hour
         clock instead of a 10-hour clock;
        Charleston District did not verify the accuracy of contractor-supplied spreadsheets
         used to calculate standby time;
        did not include a requirement in the ice and water contracts for trucks to be
         marked by what they are carrying and whether they were ordered by State or
         Federal officials;
        ice team QA personnel did not open ice trucks to check for contract compliance;
        ice team QA personnel were not provided the appropriate equipment and adequate
         training to perform duties specified in the standard operating procedures;
        ice and water teams verified contractor invoices for mileage with handwritten
         truck tickets, not GPS data; and
        did not have QA personnel at the PODs to verify final delivery of ice and water.
As a result, we identified about $4.4 million in funds USACE Charleston District could
have put to better use by not paying the contractor for standby time on a 24-hour clock.
IAP mischarged USACE on 23 of 66 ice standby invoices we reviewed for a net amount
of $53,117.54 in overbillings. USACE overpaid $44,148.80 on 18 of the invoices and
could overpay an additional $8,968.74 if they pay the remaining 5 invoices. In addition,
at the NLSA, USACE ice and water QA personnel experienced difficulties in identifying
truck contents and difficulty getting accurate truck counts. The USACE ice team’s
current QA procedures increase the risk for contractor fraud and mismanagement.
Furthermore, USACE officials could make mistakes in paying mileage invoices by only
verifying the information with handwritten tickets. Finally, USACE has no assurance
IAP is complying with the ice and water contracts.



1
  Standby time is the reimbursable wait time to a contractor for remaining at a delivery site at the direction
of the Ordering Officer for more than 4 hours.



                                                      5
Improvements to the Ice and Water Missions Since
Hurricane Katrina
USACE has made numerous improvements to the ice and water missions following
Hurricane Katrina. The DOD IG issued a series of reports discussing the use of DOD
resources in response to the Hurricane Katrina recovery efforts and made several
recommendations to improve the ice and water missions. In addition, USACE has made
self-initiated changes to improve the ice and water delivery process.

DOD IG Ice Reports
The DOD IG issued two reports regarding the procurement and delivery of ice in
emergency situations. The DOD IG issued Report No. D-2006-116, “Ice Delivery
Contracts Between International American Products, Worldwide Services and the U.S.
Army Corps of Engineers,” on September 26, 2006, in response to a request from
Congressman Bennie G. Thompson. In Report No. D-2006-116, the DOD IG answered
Congressman Thompson’s concerns and did not include any recommendations to
USACE. The DOD IG issued Report No. D-2007-118, “Contract Administration of the
Ice Delivery Contract Between International American Products, Worldwide Services
and the U.S. Army Corps of Engineers During the Hurricane Katrina Recovery Effort,”
on August 24, 2007, addressing other issues identified in the administration of the
2003 ice delivery contract that were not part of Congressman Thompson’s original
request. USACE agreed with the DOD IG recommendations and made the following
improvements to the ice mission.

      USACE provides personnel at the districts performing the National Ice and Water
       Missions annual training, and personnel at receiving sites receive just-in-time
       training during emergencies.

      USACE finalized the Ice-Water-Commodities Standard Operating Procedures,
       and USACE officials held meetings to update the Ice-Water-Commodities
       Standard Operating Procedures before the next hurricane season.

      USACE Charleston District plans to test the reliability of data produced by the
       automated tracking system following the completion of the payment of invoices
       for the 2008 hurricane season. USACE Charleston District officials plan to use
       the data to pay future invoices for additional ground mileage invoices if the data
       proves to be reliable.

The USACE ice team has made changes to the ice mission through DOD IG
recommendations and self-initiated changes. However, USACE officials should make
additional changes to the award and administration of the ice contract to further improve
the overall ice mission.

DOD IG Water Reports
The DOD IG issued two reports regarding the procurement and delivery of water in
emergency situations. The DOD IG issued Report No. D-2006-109, “Response to


                                            6
Congressional Requests on the Water Delivery Contract Between the Lipsey Mountain
Spring Water Company and the United States Army Corps of Engineers,” on
August 29, 2006, in response to requests from Congressman Christopher Shays and
Congressman Bennie G. Thompson. In Report No. D-2006-109, the DOD IG answered
Congressman Shays’ and Congressman Thompson’s concerns and did not include any
recommendations to USACE. The DOD IG issued Report No. D-2007-055, “Contract
Administration of the Water Delivery Contract Between the Lipsey Mountain Spring
Water Company and the United States Army Corps of Engineers,” on February 5, 2007,
addressing other issues identified in the administration of the water delivery contract that
were not part of Congressman Shays’ and Congressman Thompson’s original requests.
USACE agreed with some of the DOD IG recommendations and made the following
improvements to the water mission.

      USACE uses the contractor’s web-based tracking system and is working with IAP
       to improve the system as lessons are learned from each mission.

      USACE no longer makes air deliveries of water for locations in the continental
       United States.

The USACE water team has made changes to the water mission through DOD IG
recommendations and self-initiated changes. However, USACE officials should make
additional changes to the award and administration of the water contract to further
improve the overall water mission.

USACE Improvements to the Ice and Water Missions
USACE has also made their own improvements to better execute the ice and water
missions. USACE Charleston District made automated tracking a requirement in the
2006 ice delivery contract W912HN-07-D-0007. USACE implemented a policy that the
USACE district responsible for the National Ice and National Water Missions will rotate
annually on March 1st of each year. The National Ice Mission responsibility rotates
between the Charleston District and the Albuquerque District. The National Water
Mission responsibility rotates between the New England District and the Kansas City
District. For the 2008 hurricane season, the Albuquerque District’s ice team and Kansas
City District’s water team deployed to help support the Charleston District and New
England District as the primary National Ice and Water Teams. USACE officials stated
that they plan to have the secondary teams assist the primary teams each year. The
USACE Albuquerque District ice team is the primary team for the 2009 hurricane season.
USACE Albuquerque District officials stated that they currently do not have enough
volunteers to fill all the required positions on the ice team and having USACE Charleston
District also deploy will fill the needed positions.

Although USACE has made these improvements to the ice and water contracts and
procedures, USACE should make additional improvements to better execute the ice and
water missions.




                                             7
USACE ACI Contracts for Ice and Water
USACE contracting officials could make improvements to the terms and conditions of
future ice and water contracts. For the ice contract, USACE unnecessarily pays for
excess standby time. Neither the ice nor water contracts include requirements to ensure
that the ice and water distribution process runs efficiently at the NLSA. Table 1
compares the ice and water contracts.

                       Table 1. Comparison of Ice and Water Contracts

                                      Ice                                    Water
Standby Time*                         Contractor entitled to a               Contractor entitled to a
                                      maximum of 24 hours per                maximum of 10 hours per
                                      calendar day                           calendar day
Contract requirement to               No                                     No
ensure contents of truck
can be easily identified at
the NLSA
*The contractor is paid for each hour of standby time after the initial 4 hours.



Standby Time – 24-Hour Clock
USACE Charleston District paid IAP for standby time on the ice contract for hours that
drivers are required by law not to work. In accordance with the ice contract, USACE
pays IAP $51.25 per hour for standby time in excess of 4 hours for a maximum of
24 hours per calendar day. Federal Motor Carrier Safety Administration Regulation
Part 395.3; “Maximum driving time for property-carrying vehicles,” restricts drivers from
driving “. . . more than 11 cumulative hours following 10 consecutive hours off-duty; or
for any period after the end of the 14th hour after coming on duty following 10
consecutive hours off duty. . .” Therefore, any standby time USACE paid IAP over
14 hours is being paid for time drivers cannot work. IAP billed USACE a total of about
$8.2 million for standby time as of June 24, 2009, for the 2008 hurricane season.
However, USACE pays IAP differently for the water contract. In accordance with the
water contract, USACE pays IAP $65.04 per hour for standby time in excess of 4 hours
for a maximum of 10 hours per calendar day. If USACE only paid the contractor a
maximum of 10 hours per calendar day, not including the initial 4 hours for the ice
contract, USACE would have avoided costs of about $4.4 million on ice standby time for
the 2008 hurricane season. USACE Charleston District should modify the current and
future ice delivery contracts to pay a maximum of 10 hours of standby time per calendar
day in excess of 4 hours to avoid paying drivers for time they cannot work. See Table 2
for the total lost savings by paying a maximum 10 hours per calendar day in excess of
4 hours for standby time.




                                                       8
                                Table 2. Standby Time Lost Savings

                                  Total Standby             Total Billable         Cost per         Total Cost
                                     Hours*                    Hours                 hour
Standby time in excess            171,255.68               159,183.35              $51.25        $8,158,146.69
of 4 hours for a
maximum of 24 hours
per calendar day
Standby time in excess            171,255.68               74,272.28               $51.25        $3,806,454.35
of 4 hours for a
maximum of 10 hours
per calendar day
Total                                                                                            $4,351,692.34
*Total Standby Hours reflects the total hours after incorporating errors, not the actual total hours billed.



Standby Time – Overbillings by IAP
USACE Charleston District officials did not verify the accuracy of IAP-supplied
spreadsheets used to calculate standby time, resulting in mischarges and overpayments to
IAP for standby time. During our review of 66 ice standby invoices including 52 paid
and 14 unpaid, we identified 20 invoices IAP overbilled USACE and 3 invoices IAP
underbilled USACE, resulting in about $53,000 in net overbillings by IAP. Of the
52 paid invoices, 18 invoices contained 39 errors that resulted in about $44,000 in
overpayments USACE made to IAP. Of the 14 unpaid invoices, 5 invoices contained
6 errors that, if USACE pays, would result in about $9,000 in additional overpayments to
IAP. We determined that the errors were caused by mistakes in the spreadsheet IAP used
to calculate standby time. For example, the initial 4 hours of standby time were not
subtracted from the total standby time, overcharging USACE $205.00 in each instance.
We notified USACE Charleston District of the errors. See Table 3 for the results of our
review of the 66 paid and unpaid standby invoices.

                                      Table 3. Standby Invoices

Payment         Number of Invoices                Number of                Total          Net Amount IAP
 Status            Reviewed                      Invoices with             Errors        overbilled USACE
                                                    Errors
Paid                       52                         18                      39              $44,148.80
Unpaid                     14                          5                       6               $8,968.74
Total                      66                         23                      45              $53,117.54

Of the $53,117.54 that we identified as the net amount IAP overbilled USACE in
Table 3, $17,801.69 of that amount is due to IAP double billing USACE for standby
time. We identified four truck tickets that IAP double billed USACE for standby time.


                                                       9
Two truck tickets were billed on different invoices and paid twice, one truck ticket was
paid once and then billed again on a different invoice but had not been paid, and one
truck ticket was billed twice on the same invoice and still remains unpaid as of
June 24, 2009. USACE officials should recoup the $44,148.80 in overpayments made to
IAP and should not pay the additional $8,968.74 in overbillings until the invoices are
corrected. Furthermore, USACE personnel should verify the accuracy of contractor-
supplied spreadsheets before making future payments to IAP. Table 4 shows a summary
of the invoices that contained truck tickets double billed to USACE.

                                      Table 4. Double Billings

                         Payment           Payment Status   Amount         Amount of
                         Status of            of Second     Overpaid        Potential
                       First Invoice            Invoice                   Overpayment
Truck Ticket 1         Paid                Paid             $3,208.25           -
Truck Ticket 2         Paid                Paid             $4,394.69           -
Truck Ticket 3         Paid                Unpaid               -          $4,010.31
Truck Ticket 4         Unpaid              Unpaid*              -          $6,188.44
Total                                                       $7,602.94      $10,198.75
*The truck ticket was billed twice on the same invoice.



IAP billed USACE separately for ice, additional ground mileage, rental refrigerated
storage units, and standby time. We reviewed only the standby time invoices that had
been billed by IAP as of June 24, 2009. Because of the high rate of errors we found in
the IAP spreadsheets used to calculate standby time, USACE should perform a
100-percent review of invoices for the 2008 hurricane season as well as standby time
invoices billed after March 20, 2009, or request the Defense Contract Audit Agency to
perform the review and determine additional monetary savings.

Identification of Truck Contents
Ice and water QA personnel at the NLSA were not able to easily identify truck contents
as they entered the NLSA, causing difficulty getting accurate truck counts. According to
both ice and water QA personnel, they were not able to easily identify the contents of the
trucks because the trucks were not marked when they arrived at the NLSA. During the
2008 hurricane season, local, State, and Federal authorities all ordered ice and water, as
well as other commodities. A water QA inspector stated that the water team had
problems identifying whether the trucks contained local, State, or Federal resources. QA
personnel attempted to mark the trucks with tape when signing them in; however,
USACE encountered problems with trucks being relocated and trucks that were
mismarked. For example, truck drivers placed signs in their windows stating “State
Water” when those particular trucks contained water purchased by USACE. USACE
should modify the future and consider modifying the current ice and water delivery
contracts to include a requirement for the contractor to mark trucks as “USACE ice” or



                                                    10
“USACE water,” which will help alleviate the delays and difficulty when signing in
trucks. Figure 1 shows a traffic backup entering a NLSA.




Source: U.S. Army Corps of Engineers

Figure 1. Traffic Backup Entering a NLSA

Contract Administration and QA Procedures for the Ice and
Water Missions
USACE officials could make improvements to the contract administration and QA
procedures for the ice and water missions. For the ice contract, USACE does not have
procedures in place to ensure contract compliance and does not provide QA personnel
with the appropriate equipment and training to perform duties specified in the standard
operating procedures. For both the ice and water contracts, USACE does not have
procedures in place to reduce errors when paying invoices and to verify the final delivery
of ice and water. Table 5 compares the ice and water QA procedures.




                                            11
                        Table 5. Ice and Water QA Procedures

                                          Ice                               Water
QA inspections at the NLSA                Does not open truck to            Randomly opens truck
                                          ensure contract                   to ensure contract
                                          compliance                        compliance
QAs sent to NLSA with                     No                                Yes
equipment (laptop, wireless card,
etc.)
Adequate training for QAs                 No                                Yes
Method of signing in and out              Handwritten on truck              Handwritten on truck
trucks at NLSA                            ticket upon truck’s               ticket upon truck’s
                                          arrival and departure             arrival and departure
Truck ticket input                        At USACE office on a              Immediately onsite at
                                          later date                        NLSA
Use of GPS data to verify                 No                                No
mileage invoices
QA present at final POD                   No                                No

QA Inspections at the NLSA
USACE National Ice Team QA personnel (Ice QA Personnel) do not open the trucks as
they arrive at the NLSA to verify the contents and check for contract compliance
increasing the risk of contractor fraud and mismanagement. The ice contract is very
specific on how the ice must be packaged. The contract states,
              Packaged ice shall be fully covered on the top, four sides, and the
              bottom with a minimum of one layer of bubble-wrap below the
              required stretch-wrap (stretch-wrap shall be placed on the exterior
              surface of the bubblewrap).

USACE officials have no assurance that IAP is fulfilling their contractual requirements
without Ice QA Personnel opening the trucks. Ice QA Personnel verify only the time in
and time out of the truck at the NLSA by signing the truck ticket. USACE officials stated
that they do not open the trucks at the NLSA because opening the truck shows they have
accepted the ice prior to final delivery. Ice QA Personnel should verify the contents of
the ice trucks at the NLSA to ensure the contractor is in compliance with the terms and
conditions of the ice contract.

USACE National Water Team QA personnel (Water QA Personnel) do open the trucks
randomly as they arrive at the NLSA to verify the contents and check for contract
compliance. The water contract is also very specific on how the water must be packaged
and loaded onto the truck for shipment. The contract states,
              Bottled water shall be packed in cases with a cardboard bottom, which
              shall be individually shrink-wrapped and shall be shipped on industry
              standard size pallets. Pallets of bottled water will be fully covered on


                                                12
                  all four sides with a minimum of a double layer of stretch-wrap. The
                  stretch wrap shall be placed so that it overlaps the top on all four
                  corners a minimum of four inches. Pallets shall be hardwood and
                  designed for pickup from all four sides.

Water QA Personnel randomly open trucks to inspect the load as trucks enter the NLSA
to ensure the amount of water indicated is correct and the load has not significantly
shifted during transport so it can be unloaded by a fork-lift. If a load had shifted, Water
QA Personnel ask IAP to fix the load before accepting it. Water QA Personnel also
verify the time trucks arrive and depart the NLSA by recording the times and signing the
truck ticket. Figure 2 shows a properly loaded water truck.




                           Source: U.S. Army Corps of Engineers

                           Figure 2. Properly Loaded Water
                                         Truck

QA Equipment and Training
Ice QA Personnel deployed without adequate equipment and training to perform the
duties listed in their standard operating procedures. In addition, the ice team was not
adequately equipped. In one instance, only one Ice QA individual was sent to the NLSA
with a laptop. Ice QA Personnel lacked a consistent data connection, which prevented
the entering of truck ticket information onsite at the NLSA, and wireless Internet cards
were not provided to help QAs obtain Internet access. Even if all Ice QA Personnel were
equipped with laptops, the NLSA usually does not have a consistent power source, and
QA personnel would not be able to charge them. In addition, according to Ice QA
Personnel, the only training for Ice QA Personnel was just-in-time training 2 on arrival at
the NLSA and not all QA personnel received the training. However, the USACE
National Water Team deployed properly equipped and trained QA personnel to the
NLSA. Water QA Personnel are deployed with storm kits, which include cameras,
scanners, copiers, batteries, outlet converters, and thumb drives. USACE New England
District, Chief of Emergency Management explained the importance of the kits because
the team often faces difficult situations during relief efforts. For example, having outlet


2
 Just-in-time training provides basic knowledge and instruction on the specific duties and responsibilities
of QA personnel located at the NLSA.


                                                     13
converters allows the QA team to plug laptops into their cars to obtain power and
complete the necessary work during power outages at the NLSA locations. According to
National Water Team QA personnel, QAs received Level I 3 and Level II 4 training
before deployment to a disaster. USACE should provide Ice QA Personnel proper
equipment and additional training to prepare them for disaster recovery efforts.

Method of Signing In and Out Trucks at NLSA and Truck Ticket Input
USACE verifies ice and water invoices for standby time with handwritten truck tickets,
creating the potential for USACE to make mistakes when paying invoices. On the truck
tickets, Ice and Water QA Personnel manually record the truck’s:

        dispatched destination,

        date and time in,

        date and time out, and

        signature and printed name of the person signing out the truck.

USACE Ice and Water Teams use handwritten truck tickets to verify contractor invoices
before payment is made, and according to USACE personnel, it is sometimes difficult to
read the tickets, making verification for invoice processing difficult. USACE personnel
verify the amount of standby time by subtracting the date and time in by the date and
time out for each destination indicated on the truck ticket. Ice QA Personnel stated that
not everyone knows how to fill out the truck tickets and the tickets do not contain enough
room to clearly write all the required information. Water QA Personnel explained that
they entered truck tickets into a spreadsheet and electronically scanned in the truck
tickets at the NLSA and e-mailed them to the Mission Manager at USACE New England
District office on a daily basis to clarify ticket disputes before the invoice was received.
Water QA Personnel stated that they contacted IAP personnel when problems were
identified with signatures or dates and times at the NLSA and asked them to correct it
immediately.

The USACE Ice Team enters truck tickets at a later date, causing delays in the invoice
payment process. Ice QA Personnel explained that they had planned to input the truck
tickets into the Engineers Link Interactive database 5 at the NLSA, but this did not work
because only one Ice QA individual was sent to the NLSA with a laptop. Ice QA
Personnel also stated that even if they did have more laptops, they were too busy with


3
  Level I training provides the framework for the concept of operations to the Planning and Response
Teams, information about the team’s composition and function, and information regarding the tools to be
used.
4
  Level II training is task-specific training that blends processes and procedures with task training
environments and training exercises.
5
  Engineers Link Interactive provides a single data entry point that standardizes and integrates methods of
collecting, analyzing, forecasting, and presenting information for decision makers.


                                                     14
incoming trucks to sit down and input the tickets, and most Ice QA Personnel were not
trained on how to use the Engineers Link Interactive database. USACE should use a
system, such as barcode scanners at the entrance and exit of the NLSA, to ensure more
accurate and timelier invoice processing.

Use of Truck Tickets and GPS Data to Verify Mileage Invoices
USACE officials have the potential to make mistakes when paying the contractor for
additional ground mileage 6 because they verify contractor invoices with handwritten
truck tickets. USACE personnel rely on handwritten truck tickets to determine the
amount of additional ground mileage to pay the contractor. According to the National Ice
Team, USACE is considering the use of IAP’s GPS data to calculate the mileage.
USACE ice personnel currently use the handwritten truck tickets to obtain mileage
information. These handwritten truck tickets can be hard to read and are susceptible to
human error. USACE officials allow for a 15 percent margin of error on mileage
disputes with IAP. The USACE National Ice Team wants to review IAP’s GPS data to
determine the accuracy for calculating the amount of mileage to be paid. Using the GPS
data to account for mileage would help the USACE Ice Team to complete invoices more
quickly because they would not have to dispute the mileage as often. However, the
National Water Team does not plan to use IAP’s GPS data to track mileage. The
National Water Team mission manager explained that USACE uses ballpark figures and
works with IAP to determine the amount of mileage because sometimes the exact
addresses of the PODs are unknown. The water trip tickets have the odometer reading
handwritten on it and are compared to the actual mileage from MapQuest to come to an
agreement with IAP for mileage to be paid on common trips. USACE should use some
method such as automated tracking system data to calculate the mileage to provide a
more accurate mileage amount for billing purposes.

QA Presence at the POD
USACE does not verify the delivery of ice and water at the POD. QA personnel are not
located at the POD to verify the final delivery of the product. Ice QA Personnel
confirmed that the lack of QA personnel at the POD led to difficulty in tracking the final
delivery of trucks. For example, an entire truck must be delivered to one POD. Because
of the lack of QA personnel stationed at the final delivery point, POD personnel
sometimes accepted only half of the truck load. According to Water QA Personnel,
USACE does not maintain control over the delivery trucks after the trucks leave the
NLSA. QA personnel are not stationed at the end point to verify that trucks are being
delivered to the POD. Both the National Ice and National Water Teams acknowledged
the issue, and explained that it would require extra manpower that USACE currently
cannot provide. USACE should position QA personnel at the PODs to verify the final
delivery of ice and water, even if QA personnel only sample a number of PODs.




6
 Additional ground mileage is the mileage traveled between the original delivery site and any additional
delivery site.


                                                    15
Resolicitation of USACE ACI Ice Contract
USACE Charleston District contracting officials awarded the current ACI ice contract in
December 2006, for 1 base year and 2 option years, based on revised FEMA ice policies.
A USACE official explained the ice contract was not awarded for 1 base year and
4 option years because FEMA stated that they would no longer be distributing ice during
disaster recovery efforts. FEMA officials issued a memorandum on July 3, 2008, stating
that they would:

      not directly purchase, store, or distribute ice;

      reimburse (under FEMA Public Assistance Program), States, territories, tribal
       governments, and eligible applicants for the eligible costs associated with
       purchasing and distributing ice as an emergency protective measure; or

      direct mission assignments to USACE or use agreements with other entities as
       may be required to augment State ice distribution capability.

However, FEMA did direct mission assignments for ice to USACE for the
2008 hurricane season. USACE Charleston District must resolicit for a new ice contract
when the current contract expires at the end of December 2009. The USACE Charleston
District contracting officer stated the next ACI ice contract, following the
December 31, 2009, expiration of the current ice contract, will be awarded for 1 base year
and 4 option years. USACE officials stated that they would save time and money by
re-soliciting for a new ice contract only every 5 years.

Conclusion
USACE officials made improvements to the ice and water missions for the
2008 hurricane season. However, additional improvements by USACE to future ACI ice
and water contracts and quality assurance procedures will provide a more efficient overall
ice and water mission. USACE Charleston District needs to modify future and consider
modifying current ACI ice contract’s standby time to ensure USACE does not pay for
excess standby time. USACE could have avoided paying about $4.4 million if the ice
contract paid standby time on a 10-hour clock instead of the 24-hour clock stated in the
current ice contract. In addition, USACE officials should recoup $44,148.80 in
overpayments they made to IAP because of mistakes in invoices and double billings and
not pay the $8,968.74 in billing errors by IAP that are unpaid. Furthermore, USACE
should perform a 100-percent review of invoices for the 2008 hurricane season as well as
standby time invoices billed after March 20, 2009, or request the Defense Contract Audit
Agency to perform the review and determine additional monetary savings. In addition,
USACE Charleston District officials need to ensure that QA personnel are properly
equipped to perform their duties at the NLSA. USACE should also improve contract
administration and QA procedures, including inspecting the contents of trucks at the
NLSA and at the POD locations, using a method such as electronic tracking data to verify
mileage invoices, and equipping QA personnel with the proper equipment needed to
streamline the delivery and payment process.


                                             16
Recommendations, Management Comments, and Our
Response
We recommend that the Commander, U.S. Army Corps of Engineers:

      1. Modify the current and future ice delivery contract to pay a maximum of
10 hours of standby time per calendar day in excess of 4 hours.

Management Comments
USACE partially agreed and stated that it will consider modifying the existing contract to
change the maximum from 24 hours to 10 hours of standby time each day in excess of
4 hours. USACE will incorporate this recommendation into the new contract with an
estimated award date of November 30, 2009.

Our Response
Although USACE only partially agreed, USACE’s planned action to consider modifying
the existing contract met the intent of the recommendation. The comments were
responsive, and no additional comments are required.

       2. Recoup the net amount of $44,148.80 in overpayments on ice delivery
contract W912HN-07-D-0007 from International American Products, Worldwide
Services and do not pay the additional $8,968.74 in overbillings until the invoices are
corrected and verified.

Management Comments
USACE agreed and stated that the National Ice Team personnel completed a
reconciliation of identified discrepancies, met with the contractor, and is in the process of
recouping overpayments.

Our Response
The comments were responsive, and no additional comments are required.

      3. Instruct ice team personnel to verify the accuracy of contractor-supplied
spreadsheets used to calculate standby time.

Management Comments
USACE agreed and stated that the National Ice Team personnel will compare trip ticket
information, Engineers Link Interactive database data, and any spreadsheets developed
by the National Ice Team to confirm accuracy of contractor-provided spreadsheets.

Our Response
The comments were responsive, and no additional comments are required.




                                             17
        4. Perform a 100-percent review of invoices for the 2008 hurricane season as
well as standby time invoices billed after March 20, 2009, or request the Defense
Contract Audit Agency perform the review.

Management Comments
USACE agreed and stated that a 100-percent review of contractor spreadsheet
calculations for each invoice will be done by the responding Ice and Water Mission
district personnel. The National Water Team currently does a 100-percent review of
invoices prior to processing them for payment.

Our Response
The comments were responsive, and no additional comments are required.

       5. Modify the current and future ice and water delivery contracts to include
a requirement for the contractor to mark trucks by what they are transporting.

Management Comments
USACE partially agreed and stated that the current ice contractor will comply with this
recommendation with no contract modification required. The future ice contract will
contain this requirement. USACE stated that discussions with the water contractor and
contract modifications for this change are already underway.

Our Response
Although USACE only partially agreed, USACE’s planned actions to have the current ice
contractor comply with the recommendation with no contract modification and the
discussions with the water contractor to modify the contract met the intent of the
recommendation. We consider the comments responsive, and no additional comments
are required.

       6. Instruct ice team quality assurance personnel to verify the contents of the
trucks to ensure compliance with the contract.

Management Comments
USACE agreed and stated that QA personnel will be instructed to inspect ice to ensure
contract compliance.

Our Response
The comments were responsive, and no additional comments are required.

        7. Provide ice team quality assurance personnel with proper equipment, as
well as additional training before deploying for a disaster recovery effort.

Management Comments
USACE agreed and stated that USACE is in the process of upgrading and obtaining
additional laptops for response personnel and has already provided wireless Internet cards


                                           18
to the response team. The USACE Readiness Support Center also developed a
Commodities “pocket guide” to assist QA personnel.

Our Response
The comments were responsive, and no additional comments are required.

       8. Include a contract requirement for each truck to have an electronic
tracking system, such as a bar code, to be scanned on arrival and departure at each
destination to mitigate the possibility of human error when paying invoices.

Management Comments
USACE partially agreed and stated that a requirement for the contractor to use bar code
scanners at staging areas is included in the scope of work for the award of the FY 2010
national ice contract. Currently, the National Water Team uses a paper delivery sheet
method and based on the DOD-OIG auditors’ observation, this system appears to be
successful.

Our Response
Although USACE only partially agreed, the National Water Team’s paper delivery sheet
method is acceptable as long as procedures are in place to mitigate the possibility of
human error. We consider the comments responsive, and no additional comments are
required.

      9. Use automated tracking system data to calculate the mileage to provide a
more accurate mileage amount for billing purposes.

Management Comments
USACE disagreed that using only geospatial data to calculate mileage would provide
accurate mileage amount for billing purposes. The alternative practice is to use an
Internet-based distance calculator that uses geospatial data, such as “MapQuest” or
“Google Maps,” to determine the distance between two sites and then compare that
number with odometer readings to establish standard mileage through negotiations with
the ice and water contractors.

Our Response
Although USACE disagreed, we accept USACE’s alternative practice provided they
ensure that it is not paying for excess ground mileage. We consider the comments
responsive, and no additional comments are required.

        10. Position quality assurance personnel at the points of distribution to
verify the delivery of ice and water, even if it’s only at a sample of points of
distribution locations.




                                           19
Management Comments
USACE agreed and stated that the current practice of using commodities team point-of-
distribution runners meets the intent of the recommendation to have “sample points” of
coverage and is most cost-effective.

Our Response
The comments were responsive, and no additional comments are required.




                                          20
Appendix A. Scope and Methodology
We conducted this performance audit from October 2008 through July 2009 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

We conducted this audit based on the commitment of the President’s Council on Integrity
and Efficiency (now known as the Council of Inspectors General on Integrity and
Efficiency) to take a proactive approach in reviewing disaster relief efforts.

Based on our initial review, we divided the project into two sub-projects. Project
No. D2009-D000CG-0027.001 is limited to the review of the USACE ice and water
response to the 2008 hurricane season. Specifically, we reviewed the award and
administration of contracts for the ice and water missions during the disaster relief efforts
for Hurricanes Gustav, Hannah, and Ike. In addition, we reviewed the amount that
USACE paid for standby time for the ice contract during the 2008 hurricane season. A
separate report for Project No. D2009-D000CG-0027.000 will be issued to address
USACE temporary roofing and temporary power response to the 2008 hurricane season.

We obtained and reviewed ice contract W912HN-07-D-0007 with IAP dated
December 22, 2006, the contract has a not to exceed amount of $350 million over the life
of the contract. The contract includes a 1 year base period and 2 option years. We
obtained and reviewed the acquisition plan for the ice contract. We also obtained and
reviewed water contract W912WJ-08-D-0001 with IAP dated April 4, 2008, without a
not to exceed amount. The contract includes 1 year base period from the award date
through March 31, 2009, and 4 options years. We obtained and reviewed the acquisition
plan, solicitation, and source selection evaluation documentation for the water contract.

We reviewed section 5121, title 42, United States Code, “Robert T. Stafford Disaster
Relief and Emergency Assistance Act,” The National Response Framework, The
Emergency Support Function #3, Federal Motor Carrier Safety Administration
Regulation Part 395.3; “Maximum driving time for property-carrying vehicles,” and
Federal Acquisition Regulation Subpart 17.204, “Contracts.”

We obtained information related to USACE’s implementation of recommendations from
previous DOD IG reports: Report No. D-2007-118, “Contract Administration of the Ice
Delivery Contract Between International American Products, Worldwide Services and
the U.S. Army Corps of Engineers During the Hurricane Katrina Recovery Effort,”
August 24, 2007; Report No. D-2007-055, “Contract Administration of the Water
Delivery Contract Between the Lipsey Mountain Spring Water Company and the United
States Army Corps of Engineers,” February 5, 2007; Report No. D-2006-116, “Ice
Delivery Contracts Between International American Products, Worldwide Services and



                                             21
the U.S. Army Corps of Engineers,” September 26, 2006; and Report No.
D-2006-109, “Response to Congressional Requests on the Water Delivery Contract
Between the Lipsey Mountain Spring Water Company and the United States Army Corps
of Engineers,” August 29, 2006.

We interviewed personnel from five USACE office locations (USACE Headquarters,
Washington, D.C.; USACE Charleston District, Charleston, South Carolina; USACE
New England District, Concord, Massachusetts; USACE Galveston District, Galveston,
Texas; and USACE Albuquerque District, Albuquerque, New Mexico) to determine their
involvement and understanding of the ice and water missions. We met with and
interviewed personnel from contracting, emergency management, QA, action officers,
mission managers, legal, and resource management, at these locations. We obtained
information on the processes used to implement FEMA mission assignments and the
reconciliation process used to pay invoices from IAP. We obtained information on how
the invoices from IAP were processed by USACE Charleston District and USACE New
England District. We obtained information and documentation on the process IAP uses
to invoice USACE for services rendered during the disaster relief effort.

We reviewed 52 paid invoices and 14 unpaid invoices dated October 10, 2008, through
February 25, 2009, totaling about $8.2 million for standby time in excess of 4 hours for
the Hurricane Ike and Hurricane Gustav ice mission recovery efforts. We verified the
amount of total standby time and billable standby generated on the IAP spreadsheet by
inserting the time and date in and time and date out for each location listed on the IAP
spreadsheet into a formula in our spreadsheet. The formula in our spreadsheet
determined the amount of total standby time and billable standby that USACE should
have been charged. If the amount in our spreadsheet did not match the IAP spreadsheet,
we noted the discrepancy and determined how much IAP over- or undercharged USACE.

Use of Technical Assistance
The DOD IG Quantitative Methods and Analysis Division assisted on this audit. They
developed a formula in a Microsoft Excel spreadsheet to calculate the standby time
billable, assuming USACE paid for standby time on a 10-hour clock versus a 24-hour
clock.

Use of Computer-Processed Data
We used computer-processed IAP spreadsheets to determine the amount of standby time
billed to USACE. We assessed the reliability of the computer-processed spreadsheet by
reentering the dates and times into auditor-generated spreadsheets to check the accuracy
of the calculations. We did not verify the date and time in and the date and time out of
each truck ticket unless we found a discrepancy in the spreadsheet calculations.




                                           22
Appendix B. Prior Coverage
During the last 5 years, the Government Accountability Office (GAO), the DOD IG, the
Army Audit Agency, Naval Audit Service, and the Air Force Audit Agency, have issued
36 reports discussing hurricane response by the Department of Defense. Unrestricted
GAO reports can be accessed over the Internet at http://www.gao.gov. Unrestricted
DOD IG reports can be accessed at http://www.DODig.mil/audit/reports. Unrestricted
Army reports can be accessed from .mil and gao.gov domains over the Internet at
https://www.aaa.army.mil/. Naval Audit Service reports are unavailable over the
Internet. Air Force Audit Agency reports can be accessed from .mil domains over the
Internet at https://afkm.wpafb.af.mil/ASPS/COP/opencop.asp?filter=00-AD-01-41 by
those with Common Access Cards who create user accounts.

GAO
GAO Report No. GAO-08-1120, “Disaster Recovery: Past Experiences Offer Insights for
Recovering from Hurricanes Ike and Gustav and Other Recent Natural Disasters,”
September 2008

GAO Report No. GAO-08-596, “Human Capital: Corps of Engineers Needs to Update Its
Workforce Planning Process to More Effectively Address Its Current and Future
Workforce Needs,” May 2008

GAO Report No. GAO-07-205, “Hurricane Katrina: Agency Contracting Data Should Be
More Complete Regarding Subcontracting Opportunities for Small Businesses,” March
2007

GAO Report No. GAO-06-903, “Coast Guard Observations on the Preparation,
Response, and Recovery Missions Related to Hurricane Katrina,” July 2006

GAO Report No. GAO-06-643, “Hurricane Katrina: Better Plans and Exercises Needed
to Guide the Military's Response to Catastrophic Natural Disasters,” May 2006

GAO Report No. GAO-06-454, “Hurricane Katrina: Army Corps of Engineers Contract
for Mississippi Classrooms,” May 2006


DOD IG
DOD IG Report No. D-2008-130, “Approval Process, Tracking, and Financial
Management of DOD Disaster Relief Efforts,” September 17, 2008

DOD IG Report No. D-2008-097, “Hurricane Relief Effort Costs on the Navy
Construction Capabilities Contract,” May 23, 2008

DOD IG Report No. D-2008-080, “DOD Accounting to Support DOD Personnel During
Times of Civil Emergency,” April 25, 2008


                                         23
DOD IG Report No. D-2008-037, “U.S. Army Corps of Engineers Administration of
Emergency Temporary Roofing Repair Contracts,” December 20, 2007

DOD IG Report No. D-2007-121, “Emergency Supplemental Appropriations for DOD
Needs Arising From Hurricane Katrina at Selected DOD Components,” September 12,
2007

DOD IG Report No. D-2007-118, “Contract Administration of the Ice Delivery Contract
Between International American Products, Worldwide Services and the U.S. Army Corps
of Engineers During the Hurricane Katrina Recovery Effort,” August 24, 2007

DOD IG Report No. D-2007-081, “Financial Management of Hurricane Katrina Relief
Efforts at the U.S. Army Corps of Engineers,” April 6, 2007

DOD IG Report No. D-2007-055, “Contract Administration of the Water Delivery
Contract Between the Lipsey Mountain Spring Water Company and the United States
Army Corps of Engineers,” February 5, 2007

DOD IG report No. D-2007-038, “U.S. Army Corps of Engineers "Operation Blue Roof"
Project in Response to Hurricane Katrina,” December 22, 2006

DOD IG Report No. D-2007-002, “Use of DOD Resources Supporting Hurricane Katrina
Disaster,” October 16, 2006

DOD IG Report No. D-2006-118, “Financial Management of Hurricane Katrina Relief
Efforts at Selected DOD Components,” September 27, 2006

DOD IG Report No. D-2006-111, “Expanded Micro-Purchase Authority for Purchase
Card Transactions Related to Hurricane Katrina,” September 27, 2006

DOD IG Report No. D-2006-116, “Ice Delivery Contracts Between International
American Products, Worldwide Services and the U.S. Army Corps of Engineers,”
September 26, 2006

DOD IG Report No. D-2006-109, “Response to Congressional Requests on the Water
Delivery Contract Between the Lipsey Mountain Spring Water Company and the United
States Army Corps of Engineers,” August 29, 2006


Army
Army Audit Agency Report No. A-2008-0192-FFD, “Demolition Contracts,” July 24,
2008

Army Audit Agency Report No. A-2007-0162-FFD, “Contract Data Reporting for
Hurricane Operations,” June 28, 2007


                                        24
Army Audit Agency Report No. A-2007-0135-FFD, “Army Fund Accountability for
Hurricane Katrina Relief Efforts,” June 12, 2007

Army Audit Agency Report No. A-2007-0016-FFD, “Debris Removal Contracts,”
November 9, 2006

Army Audit Agency Report No. A-2006-0198-FFD, “Contracts for the Hurricane
Protection System in New Orleans,” August 22, 2006


Navy
Naval Audit Service Report No. N2008-0004, “Controls Over Shipbuilding and
Conversion, Navy Funds Hurricane Relief Efforts,” October 29, 2007

Naval Audit Service Report No. N2007-0039, “Controls and Accountability Over
Medical Supplies and Equipment - Hurricane Relief Efforts,” June 1, 2007

Naval Audit Service Report No. N2007-0034, “Contractor Support Services in Support of
Hurricane Relief Efforts,” May 22, 2007

Naval Audit Service Report No. N2007-0021, “Hurricane Relief Funds for Military
Family Housing Construction at Gulfport and Stennis Space Center, Mississippi,” March
27, 2007

Naval Audit Service Report No. N2007-0016, “Information Systems Restoration and
Data Recovery Related to Hurricane Katrina,” February 23, 2007

Naval Audit Service Report No. N2007-0009, “Department of the Navy's Use of
Hurricane Katrina Relief Funds,” January 3, 2007

Naval Audit Service Report No. N2006-0047, “Cash Accountability of Department of the
Navy Disbursing Officers for Hurricane Katrina Relief Funds,” September 22, 2006

Naval Audit Service Report No. N2006-0042, “Department of the Navy's Government
Commercial Purchase Cards used for Hurricane Relief Efforts,” August 25, 2006

Naval Audit Service Report No. N2006-0015, “Chartered Cruise Ships,”
February 16, 2006


Air Force
Air Force Audit Agency Report No. F2008-0007-FD1000, “Hurricane Disaster
Planning,” June 4, 2008




                                         25
Air Force Audit Agency Report No. F2007-0008-FD1000, “Hurricane Katrina
Supplemental Funds Management,” April 23, 2007

Air Force Audit Agency Report No. F2007-0003-FB1000, “Hurricane Katrina Federal
Emergency Management Agency Reimbursements,” November 20, 2006




                                       26
U.S. Army Corps of Engineers Comments




                  Click to add JPEG file




                                 27
Click to add JPEG file




               28
Click to add JPEG file




               29
Click to add JPEG file




               30
Click to add JPEG file




               31
